               Department of Veterans Affairs
               Office of Inspector General



                 Office of Healthcare Inspections

Report No. 14-01119-168



               Healthcare Inspection 


       Community Living Center 

              Patient Care 

    Gulf Coast Veterans Health Care 

                System 

           Biloxi, Mississippi 





May 28, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                    Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
                      Web site: www.va.gov/oig
             Community Living Center Patient Care, Gulf Coast Veterans Health Care System, Biloxi, MS



                                 Executive Summary 

The VA Office of Inspector General Office of Healthcare Inspections conducted an
inspection in response to allegations of inadequate Community Living Center (CLC)
physician staffing, improper supervision of surgical residents, refusal of nursing staff to
provide care to CLC patients, a lack of action by the system in response to quality of
care concerns, and poor quality of care provided in the Emergency Department at the
Gulf Coast Veterans Health Care System, Biloxi, MS.

We substantiated that physician staffing in the CLC, which is part of the Extended Care
Service, is inadequate. We found that the CLC currently only has one physician, who is
the chief of the service. The Extended Care Service has four physician vacancies and
no ongoing active recruitment for these vacancies.

We did not substantiate that surgical residents were not properly supervised, that
nursing staff refused to provide care to CLC patients, that the system did not respond
appropriately when quality of care concerns were raised, or that CLC patients received
poor quality of care when transferred to the Emergency Department.

We recommended that the System Director actively recruit and fill approved physician
vacancies within the Extended Care Service.

Comments
The Veterans Integrated Service Network and Facility Directors concurred with our
recommendation and provided an acceptable action plan. (See Appendixes A and B,
pages 7–9 for the Directors’ comments.) We will follow up on the planned action until it
is completed.




                                                             JOHN D. DAIGH, JR., M.D.
                                                            Assistant Inspector General for
                                                              Healthcare Inspections




VA Office of Inspector General                                                                      i
               Community Living Center Patient Care, Gulf Coast Veterans Health Care System, Biloxi, MS



                                                    Purpose 

The VA Office of Inspector General (OIG) Office of Healthcare Inspections conducted
an inspection to review allegations of inadequate Community Living Center (CLC)
physician staffing, improper supervision of surgical residents, refusal of nursing staff to
provide care to CLC patients, a lack of action when quality of care concerns were
raised, and poor quality of care provided in the Emergency Department (ED) at the
Gulf Coast Veterans Health Care System (system), Biloxi, MS. The purpose of the
review was to determine if the allegations had merit.

                                               Background 

System and CLC Profiles. The system is part of Veterans Integrated Service Network
(VISN) 16 and serves over 63,000 veterans. The system provides comprehensive
health care in primary care, medicine, surgery, psychiatry, psychology, neurology,
oncology, dentistry, geriatrics, extended care, and physical medicine and rehabilitation.
The system operates community based outpatient clinics in Mobile, AL; Pensacola,
Panama City, FL; and at Eglin Air Force Base, FL.

The CLC comprises 8 units with 12 beds (96 total beds), including 2 dementia care
units, 2 short-stay or rehabilitation care units, 3 long-term care units, and 1 hospice and
palliative care unit. The system’s Extended Care Service (EC) manages the CLC.
Six full-time employee equivalent (FTE) physicians are allocated to EC to cover the
Office of the EC Chief, the Biloxi Division, and three of the community based outpatient
clinics. The Office of the Chief has one approved physician FTE position to serve as
the service chief. The Biloxi Division has four approved physician FTE positions in the
CLC, which are designated to provide care within the CLC units, as well as to
community programs, such as Home Based Primary Care. The Pensacola Division has
one approved and filled physician FTE who also covers one of the current Biloxi
Division physician vacancies for community programs.

Resident Supervision. Veterans Health Administration (VHA) actively supports and
provides an environment for the training of physician, dental, podiatry, optometry
residents, and other allied health students. Within the scope of the accredited training
program, physicians in training must function under a supervising practitioner.1
The patient’s record must clearly demonstrate the involvement of the supervising
practitioner. VHA2 and local policy outline the four types of permissible documentation
of resident supervision in the inpatient setting:
    	 Progress note or other entry into the electronic health record (EHR) by the
       supervising practitioner.
    	 Addendum to the resident progress note by the supervising practitioner.

1
  A supervising practitioner is responsible for the care provided by residents to individual patients in all clinical 

settings. 

2
  VHA Handbook 1400.01, Resident Supervision, December 19, 2012. 



VA Office of Inspector General                                                                                            1
             Community Living Center Patient Care, Gulf Coast Veterans Health Care System, Biloxi, MS


   	 Co-signature of the progress note or other EHR entry by the supervising
      practitioner.
   	 Resident progress note or other EHR entry documenting the name of the
      supervising practitioner with whom the case was discussed, a summary of the
      discussion, and a statement of the supervising practitioner’s oversight
      responsibility with respect to the assessment or diagnosis and/or the plan for
      evaluation and/or treatment.

Allegations. The complainant contacted the OIG in December 2013 and January 2014
with the following allegations:
      There are inadequate physicians to care for the number of CLC patients.
      Surgical residents are not properly supervised.
      CLC nurses and nursing support staff refuse to or do not provide direct patient
       care services, specifically citing:
       o	 A nurse lied about providing medication and withheld a patient’s narcotic.
       o	 A nurse failed to properly administer an inhaled medication.
       o	 A licensed practical nurse (LPN) has refused to dispense medications at night
          and threatened veterans with retaliation if they complain.
       o Nursing assistants refuse to change veterans’ soiled diapers. 

      The system does not take action when quality of care concerns are raised. 

      CLC patients received poor quality of care when transferred to the ED. 


                            Scope and Methodology 

We interviewed the complainant prior to conducting a site visit on January 14–16, 2014.
During our site visit, we interviewed system leadership, staff involved in direct patient
care in the CLC and ED, and staff involved in quality management programs.
We reviewed VHA directives, relevant system policies and procedures, EHRs,
Human Resources Management Service recruitment documents, and CLC patient care
quality indicator data. We also inspected all units of the CLC.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




VA Office of Inspector General                                                                     2
             Community Living Center Patient Care, Gulf Coast Veterans Health Care System, Biloxi, MS



                                 Inspection Results 

Issue 1: Inadequate CLC Physician Staffing

We substantiated the allegation of inadequate physician staffing to care for patients in
the CLC. We reviewed the EC organizational chart, including the list of EC physician
positions approved by facility leadership in August 2013. We reviewed the system’s
Human Resources Management Service list of approved positions to recruit and the
CLC’s current census. During our onsite visit, the CLC’s census was 75 patients.

We found that current EC physician staffing included the Chief of EC and a physician at
the Pensacola Division who managed the Home Based Primary Care program.
The Pensacola Division physician was also serving in an acting capacity as the
Biloxi Division physician managing community programs.

In addition to the Chief of EC, we found that four nurse practitioners (NPs) were
providing care to CLC patients. However, in this facility, NPs are dependent providers
and cannot independently provide all the functions required in the CLC. The NPs were
not available for patient care issues after hours, and although all four CLC NP positions
were filled, a full complement of NPs was not available for many months due to
approved absences.

Additionally, system policy required verbal physician-to-physician communication when
a patient transferred between levels of care. Therefore, the CLC physician was
responsible for handoff communication to the ED physician when a CLC patient was
sent to the ED for evaluation.

The system had developed an action plan to support CLC staffing, which included
assigning Medical Service hospitalist staff, who did not routinely practice in the
CLC setting, to the CLC for limited times on a rotating basis. To decrease staffing
needs, the system was also reducing the CLC census by attrition on all units, except the
hospice/palliative care unit, until the EC service is appropriately staffed. At the time of
our visit, all eight units were open.

We found that no active Human Resources Management Service recruitments were in
progress for the four vacant CLC physician positions.

Issue 2: Improper Supervision of Surgical Residents

We did not substantiate the allegation that surgical residents were not properly
supervised. We reviewed all 46 inpatient surgical consults initiated in the CLC for fiscal
year 2013. We found documentation of resident supervision (co-signature of progress
notes by the supervising physician) in all the consults reviewed.

Additionally, while we were reviewing the EHRs of the patients in the ED for Issue 5,
we also reviewed surgical progress notes for care provided in the ED by surgical



VA Office of Inspector General                                                                     3
             Community Living Center Patient Care, Gulf Coast Veterans Health Care System, Biloxi, MS


residents and found the required documentation elements for resident supervision in all
the reviewed records.

During our interviews, we were told that a surgical resident sees patients in the CLC
every Saturday for regular follow-up. The resident then discusses the patients with the
surgical supervising attending physician the following Monday morning.

Issue 3: Staff Refusal to Provide Care

We did not substantiate that nursing staff refused to provide direct patient care to CLC
patients. We interviewed the nurse managers of each CLC inpatient unit and members
of the nursing staff on the CLC’s day, evening, and night shifts. We also reviewed care
quality indicator data for CLC patients from fiscal year 2013 and inspected each
inpatient unit in the CLC.

We did not find evidence that a nurse lied about providing medication and withheld a
patient’s narcotic. We reviewed the EHR of the identified patient who was admitted to
the CLC for respite care. The nurse, who was familiar with the patient from previous
respite care admissions, reviewed the patient’s medications and adjusted the timing of
the administration of three sedating medications to avoid over sedation. We found
documentation that the nurse provided the patient with all ordered medications.

We did not find evidence that a nurse failed to properly administer an inhaled
medication. We reviewed the EHR of the patient involved in the allegation and found
that the medication was administered as ordered by the physician.

We did not find evidence that an LPN had refused to dispense medications at night and
threatened veterans with retaliation if they complained. We interviewed all nursing
management staff for the CLC as well as nursing staff from all three tours of duty and
each specialty area in the CLC. No one interviewed had knowledge of an LPN refusing
to dispense medications at night or threatening patients with retaliation if they
complained.

We did not find evidence to support the allegation that nursing assistants refused to
provide continence care for patients. During our interviews, all staff reported that they
made regular rounds every 2 hours and as needed to determine if patients needed
continence or other care. Staff reported answering patient call lights and responding to
family requests to meet patient needs when initiated.

We reviewed CLC pressure ulcer and wound care data from October 2013 through
January 10, 2014. We did not find a significant number of post-admission sacral
coccygeal pressure ulcers. We found documentation that patients with pressure ulcers
were being monitored and receiving wound care. While touring the units, we did not
encounter patients in need of care, foul odors, or staff who appeared to be unengaged.

We found that the CLC was neat and clean. The units were painted with various colors
and decorated with non-institutional objects such as a fireplace, dining table, and lamps



VA Office of Inspector General                                                                     4
             Community Living Center Patient Care, Gulf Coast Veterans Health Care System, Biloxi, MS


to provide a home-like atmosphere. We found some patients up and participating in
activities, while others were sleeping, appearing comfortable in their beds.

Issue 4: System Inaction to Reported Quality of Care Concerns

We did not substantiate the allegation that the system failed to take action in response
to quality of care concerns. We interviewed system staff and leadership involved in
direct patient care, patient safety, risk management, and quality management and
reviewed documents that included the facility’s responses to various reported quality of
care concerns. We found that the system took actions for reported concerns, utilizing
appropriate supervisory and quality management options.

Issue 5: Poor Care in ED

We did not substantiate the allegation that CLC patients received poor quality of care
when transferred to the ED.

When CLC patients required urgent care, they were transferred to the ED for evaluation
and/or for consultation from other services. If the ED physician requested a surgical
consult, surgical service residents came to the ED to evaluate the patient. Supervising
attending surgeons would see the patient in the ED when indicated. Without the full
complement of CLC physicians, many patients were transferred to the ED where the
ED physicians provided primary care evaluations and consultations.

We reviewed the EHRs for six patients who were identified as having difficulty getting
ED and/or surgical care after transfer from the CLC. We did not find evidence from
either the record review or staff interviews that the patients received poor care in the
ED.

                                      Conclusions 

We substantiated the allegation that the system did not have enough physicians to care
for the patients in the CLC. The complexity of the patients’ medical needs on the eight
units varied and required different physician expertise. These medical needs are
reflected in the number of approved physicians for EC. One physician cannot meet the
demands as a service chief and the needs of all CLC patients 24 hours a day and
7 days a week.

The CLC has not been fully staffed with physicians for more than 2 years, and during
our visit, we found no active recruitment for the four approved FTE physician positions
in EC. The limited help offered to the CLC for physician coverage is not adequate to
meet the patient care needs. Rotating various acute care staff through the CLC does
not provide the specialized continuity of care needed for the long and short-term care of
patients in the CLC.

We did not find that surgical residents were not appropriately supervised. We reviewed
all surgical consults placed in the CLC, as well as surgical progress notes in the EHR on


VA Office of Inspector General                                                                     5
             Community Living Center Patient Care, Gulf Coast Veterans Health Care System, Biloxi, MS


patients reported as not receiving appropriate ED care, and did not find evidence to
support this allegation.

We did not find evidence that the nursing staff refused to care for patients, refused to
give them medications, or threatened them.

We did not find that the system ignored concerns about quality of patient care.
We found that the system and quality management service took appropriate actions
when concerns were reported.

We did not substantiate that patients received poor care in the ED. During our
EHR reviews of patients who were reported to have not received quality care in the ED,
we found that the ED physicians provided appropriate care, made recommendations to
the CLC providers, generated consults to specialty services, and that specialty services
evaluated patients in the ED as requested.

System leadership had recently reviewed and approved physician positions in EC to
meet the diverse demands of the populations served. However, leadership has not
ensured that an appropriate number of physicians was consistently present in EC or
that Human Resources Management Service actively recruits EC physicians to fill the
vacancies.

                                  Recommendation 

Recommendation 1. We recommended that the System Director actively recruits and
fills approved physician vacancies within the Extended Care Service.




VA Office of Inspector General                                                                     6
              Community Living Center Patient Care, Gulf Coast Veterans Health Care System, Biloxi, MS
                                                                                          Appendix A
                            VISN Director Comments


                Department of
                Veterans Affairs                                     Memorandum


    Date:       April 29, 2014

   From:        Director, South Central VA Health Care Network (10N16)

   Subject: Draft Report—Healthcare Inspection—Community Living Center
            Patient Care, Gulf Coast Veterans Health Care System,
            Biloxi, Mississippi

      To:	      Director, Dallas Regional Office of Healthcare Inspections (54DA)
                Director, Management Review Service (VHA 10AR MRS OIG Hotline)

             1. I concur with the findings and conclusions identified in the Office of
                Inspector General’s Report for the Community Living Center at the
                Gulf Coast Veterans Health Care System, Biloxi, MS.

             2. If you have any questions or need additional information, contact
                Reba T. Moore, VISN 16 Accreditation Specialist, at (601) 206-7022.




VA Office of Inspector General                                                                      7
             Community Living Center Patient Care, Gulf Coast Veterans Health Care System, Biloxi, MS
                                                                                         Appendix B
                         System Director Comments


               Department of
               Veterans Affairs                                     Memorandum


     Date:     April 29, 2014

    From:      Director, Gulf Coast Veterans Health Care System (520/00)

   Subject: Draft Report—Healthcare Inspection—Community Living Center
            Patient Care, Gulf Coast Veterans Health Care System,
            Biloxi, Mississippi

      To:      Director, South Central VA Health Care Network (10N16)

            1. I concur with the draft report and the identified recommendation
               made as a result of the Health Inspection review conducted at
               Gulf Coast Veterans Health Care System.

            2. Action to address the recommendation has been initiated with a
               targeted completion date of September 30, 2014.




VA Office of Inspector General                                                                     8
             Community Living Center Patient Care, Gulf Coast Veterans Health Care System, Biloxi, MS



                         Comments to OIG’s Report
The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendation

Recommendation 1. We recommended that the System Director actively recruits and
fills approved physician vacancies within the Extended Care Service.

Concur

Target date for completion: September 30, 2014

System response:

The process of recruiting to fill physician vacancies within the Community Living Center
has commenced. As of this date, we have selected two staff physicians for this patient
care area. Both are currently undergoing credentialing and privileging and are expected
to be on board by August 1, 2014. Recruitment and hiring will continue until the
four vacancies are filled.




VA Office of Inspector General                                                                     9
             Community Living Center Patient Care, Gulf Coast Veterans Health Care System, Biloxi, MS
                                                                                         Appendix C

                 OIG Contact and Staff Acknowledgments
Contact                  For more information about this report, please contact the OIG at
                         (202) 461-4720.
Contributors             Cathleen King, MHA, CRRN, Team Leader
                         Larry Ross, MS
                         Jerome Herbers, MD
                         Misti Kincaid, BS, Management and Program Analyst




VA Office of Inspector General                                                                    10
             Community Living Center Patient Care, Gulf Coast Veterans Health Care System, Biloxi, MS
                                                                                         Appendix D

                                  Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, South Central VA Health Care Network (10N16)
Director, Gulf Coast Veterans Health Care System (520/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Thad Cochran, Bill Nelson, Marco Rubio, Jeff Sessions,
 Richard C. Shelby, Roger F. Wicker
U.S. House of Representatives: Bradley Byrne, Jeff Miller, Steven Palazzo,
 Steve Southerland



This report is available on our web site at www.va.gov/oig




VA Office of Inspector General                                                                    11
